“No.

IN THE

SUPREME COURT OF THE UNITED STATES

IN re JUAN LUIS LEONOR, PETITIONER

PROOF OF SERVICE

I, Juan Luis Leonor, do swear or declare that on this date,

Tune X ap ; 202), as required by Supreme Court Rule 29 I
have served e enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF HABEAS CORPUS on Nebraska Attorney General,
Mr. Douglas Peterson (Attorney for Scott Frakes, the person detaining
Petitioner, and Director of the Nebraska Department of Correctional
Services), 2115 State Capitol Bldg., Lincoln, NE 68509-8920, by
depositing an envelope containing the above documents in the United
States mail properly addressed to him and with first-class postage
prepaid.

I declare under penalty of perjury that the foregoing is true and
correct.

Executed on lune wag! , 2001.

 
